PRIMARY APPENDIX
January 24, 2020 via email
Supreme Judicial Court for the Commonwealth of Massachusetts
Re: No. FAR-27157
JON MYERS
vs.
SONDRA MYERS & others
NOTICE OF DOCKET ENTRY
Please take note that on January 24, 2020, the following entry was made on the docket of
the above-referenced case:
DENIAL of petition to reconsider denial of FAR application.
Middlesex Superior Court No. 1281CV01904 A.C. No. 2018-P-1623
Francis V. Kenneally, Clerk
Dated: January 24, 2020
To: Jon Myers
Michael R. Perry, Esquire
Damien Robert Savoie, Esquire

1

December 23, 2019 Massachusetts Supreme Judicial for the Commonwealth of
Massachusetts
Re: Docket No. FAR-27157
JON MYERS
vs.
SONDRA MYERS
Middlesex Superior Court No. 1281CV01904 A.C. No. 2018-P-1623
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please note that on December 23, 2019, the application for further appellate review was
denied.
Francis V. Kenneally, Clerk
To: Jon Myers
Michael R. Perry, Esquire
Damien Robert Savoie, Esquire

October 25, 2019, the Massachusetts Appeals Court DENIES Myers’ Appeal of the
Middlesex Superior Court order that DENIED Myers the opportunity to extend the
timeframe of an appeal as follow:
COMMONWEALTH OF MASSACHUSETTS
2

APPEALS COURT
18-P-1623
JON MYERS
vs.
SONDRA MYERS & others,

1

MEMORANDUM AND ORDER PURSUAN TO RULE 1:28
The plaintiff, Jon Myers, sought to reopen a lawsuit he had filed in the Superior
Court, in 2012, apparently alleging intentional infliction of emotional distress by his
parents and now deceased ex-wife. 2 The Superior Court docket reflects that the case was
dismissed, that judgment entered against the plaintiff in 2013, and that this court
affirmed the judgment of dismissal in 2014.
Four years later, on April 9, 2018, the plaintiff filed a paper entitled “Motion to
Define and Stop an Evil Case of Emotional Abuse and for Relief Thereof.” The plaintiff has
not provided us a copy of this motion, but in denying the motion on April 13, 2018, a
Superior Court judge (first judge) stated that the submission is more than seventy pages
long, “fails to identify or cite to any legal cognizable basis for relief requested,” and seeks
to revisit and rehash matters that were already litigated in this case.” The Superior Court

1 Morey Myers and Margaret Carney.
2 The plaintiff has not provided us with the underlying pleadings. The case is described in the Superior Court
docket summary as “defamation,” but the plaintiffs brief describes a thirty-year pattern of emotional abuse
by the defendants and discusses in depth the law concerning the tort of intentional infliction of emotional
distress.
3

docket indicates the following activity thereafter. The plaintiff filed a motion for
reconsideration and then a timely notice of appeal, which he withdrew within a week. On
July 17, 2018 {[Myers’s note: He thought he did it sooner than that, although not certain.}
to extend the time to file an appeal, which was denied on August 9, 2018. His motion for
reconsideration of that actions was denied by a different Superior Court judge (second
judge on September 18, 2018 and the denial was entered on the Superior Court docket on
September 21, 2018. The plaintiff then filed notice of appeal from his denial of his motion
for reconsideration to extend the time to file an appeal, which is the only matter before us.
See Robinson v. Boston. Mass. App. Ct. 765, 771 (2008).
Because the plaintiff has not provided us with copies of any of the relevant
pleadings, we are unable to discern, and we need not consider, whether the second judge
erred in denying the motion of reconsideration of the motion to extend the time to file an
appeal. “The appellant has the duty to assemble such materials as will make it possible for
the court to consider the points of law he arises.” New Bedford Gas and Electric Tight Co.
v. Assessors of Dartmouth. 368 Mass. 745, 749 (1975). See Chokel v. Genzvme Coro.. 449
Mass. 272, 279 (2007). In any event, the second judge likely lacked the power to extend the
time for filing the appeal. See Mass. R. A. P. 4 (c), as appearing I the 481 Mass. 1607
(2019) (“Upon a showing of excusable neglect, the lower court may extend the time for
filing the notice of appeal by any parts for a period not to exceed 30 days from the
expiration of the time otherwise prescribed by the rule” {emphasis added}. {Myers note: “I
believe I was within the period of thirty days, plus an additional thirty days as prescribed
by the rule.”}
4

Although the merits of the underlying issue - - that is, whether the first judge erred
in denying the plaintiffs motion seeking to reopen the case - - are not before us, we
observe that the denial of that motion appears to be proper. Under Mass. R. Civ. P. 60 (b),
365 Mass. 828 (1974), the permissible reasons for relief from a final judgment are
extremely narrow and must be asserted within a reasonable time. See Owens v. Mukendi,
448 Mas. 66, 717-72 (2006). From the materials before us, it appears that the first judge
did not abuse his discretion in determining that the plaintiff did not make an adequate
T

f

showing of legally sufficient grounds for relief. '

«

We are aware that that plaintiff perceives his treatment by as family as “a story of
Biblical proportions” based on a series of events that that “threatens a gigantic moral
stain on this universe,” and that he has turned to this court for relief. Given the posture of
the appeal before us, however, the plaintiff is not entitled to reopen the lawsuit he filed in
2012.
The order dated September 18, 2018 (docketed on September 21, 2018), denying the
plaintiffs motion for reconsiderations of his motion to extend the time to file and appeal, is
affirmed.
So ordered.
By the Court (Rubin, Massing
& Englander, JJ. 3
3 The panelists are listed in order of seniority.

5

Joseph F. Stanton “s/”
Clerk

Entered: October 25, 2019

SUPPEMENTAL APPENDIX: A TWENTY-FOUR YEAR
CHRONOLOGY OF WORST CASE OF EMOTIONAL ABUSE IN HISTORY
AND POINTING TOWARDS OUR HUMANITY
•

1996-2007 Separation, divorce and cruel custody actions initiated by Carney,
with the full support of the biological parents, under the umbrella of 96D-3015 in
Middlesex County Probate and Family Court.

•

,

2006—00485 Carney initiates action in Middlesex Superior Court, alleging
Myers misused funds for Sophie and Sam. Matter settled in favor of Myers, for
$30,000.

Mvers begins to appropriately respond.
•

2008-2800 Middlesex County Massachusetts- Superior Court—Myers introduces
his first complaint referencing emotional abuse. Myers voluntarily withdraws
the complaint, perhaps prematurely, given some vague references of support to
him, which occurs on a minimal basis.

6

• 2009, Myers introduces actions in Lackawanna County,- PA, Court of Common
Pleas on two fronts. One, Myers discovers seemingly illicit handling of his
grandfather Morris B. Gelb’s estate from 1988, involving his parents, the Kleins
and Bishop. When his grandmother Mae S. Gelb passes aWay in 2008; some of
the same potentially*inappropriate behavior is occurring. Myers enters 09-CV1039.

■

• Myers also enters in the Lackawanna Court of Common Pleas 09-CV-1040, to
address the issue of substantial ongoing emotional abuse. While both petitions
are DENIED; on the latter the Honorable Judge Harold A. Thomson Jr. enters a
discussion of the Tort for the Intentional Infliction of Emotional Distress on
August 24, 2009. This discussion is the first Myers has learned of the Tort.
■ Myers has used the! misunderstood Tort as a guidepost for the past eleven years.
•i On September 22, 2009 Myers files a Notice of Appeal to the Pennsylvania
Superior Court and the brief was submitted on January 28, 2010.
• After the parents Motion to disallow Oral Argument was DENIED; oral
argument was held on June 8, 2010 in Harrisburg PA. It must be noted that
consistent with Myers’ predicament caused by abuse and the absence of reason
on the part of the parents and others; Myers was in supreme financial distress
through much of this twenty-year plus odyssey. Myers travelled by train to
Philadelphia and then rode a narrow one lane train from Philadelphia through
country to Harrisburg, barely being able to pay for a hotel.

7

• November 18, 2010 Myers’ appeal was DENIED, and on January 27, 2011, the
Motion for Re-argument was similarly Denied.
•

145 MAL 2011- February 25, 2011, Myers filed a Petition for Allowance of
Appeal to the Pennsylvania Supreme Court. After contacting the Pennsylvania
Supreme Court in August or so, of that year, that a minimalist “settlement” was
in the works, and Myers moved to withdraw; Myers’s petition was DENIED on
September 12, 2011.

• The journey was not nearly over. On May 21, 2012, Myers sought relief in
Middlesex Superior Court in the form 1281CV-01904, a Complaint also under
the umbrella of the Tort for the Intentional Infliction of Emotional Distress. This
was an extremely challenging process for Myers under the auspices of the
Honorable Dennis J. Curran, Judge. With much ardor, Myers’s Complaint was
. DENIED and Judge Curran issued some prophetic words, in support of Myers’
right to pursue legal remedy.

Judge Curran issued a dramatic declaration based in the Massachusetts
Declaration of Rights, Part the First, Article XI guarantees that: “Every subject
of the commonwealth ought to have a .certain remedy, by having recourse to the
laws, for all injuries or wrongs he may receive in his person, property or
character {emphasis added}. He ought to obtain right and justice
freely...completely, and without any denial...” It was not a mere oversight that
this Court in riding on the Defendant’s motion to dismiss did not also as the

8

defendants’ requested enjoin the plaintiff from filing actions “against {them} and
their immediate and extended families...’’Article XI in the Massachusetts
Declaration of Rights does not consist merely of words. As powerfully argued by
the trial lawyer Atticus Finch in “To Kill a Mockingbird” in his closing: “In this
country our courts are great levelers. In courts, all men are created equal. I’m no
idealist to believe firmly in our courts and our jury system — that’s no ideal to
me. That is a living, working reality.”

The spirit of the Declaration formulates the essence of Myers’ journey, as a
reflection of how far this situation and courts in general, have seemingly strayed
from our cherished ideals. While in its most visible manifestation the African
American community has suffered the most abuse in American courts; the
problem even goes deeper to a disdain for those not in power.

As if the parents and their Counsel Michael R. Perry of Boston, not to mention
the virtually always lurking Bishop of Scranton PA, initiated their own action in
2013 in Middlesex County, Massachusetts, seeking to stifle Myers legal rights in
the form of 1381CV-04614. The significant component of this action were things
aimed to stop Myers’s right to protest this ongoing horrific abuse. As well as
seeking to formalize Myers’s excommunication legal, socially and financially
from his family of origin for virtually zero substantive reason.

9

•

On April 9, 2018, Myers moved perhaps clumsily and still with truth on his side
to reopen the matter, predicated on three key facts: 1) Myers’ ex-wife Carney had
died on or about February 2, 2016, “peacefully (according to her obituary)” in her
native Oklahoma. 2) Myers to this day, has not seen his son Samuel since March
16 2012. 3) Myers highlighted that for twenty plus years in the city of
Cambridge, MA; he was widely recognized for developing innovative programs
for youth, and still could not see his own children, based on the evil dynamic put
in place by his parents, Nathan Myers, Stolzenberg and others. Indeed Myers
entitled the Motion: “To Define and stop an Evil case of Emotional Abuse and for
relief thereof.”

• That Motion was DENIED Middlesex Superior Court on April 13, 2018, and
thereby became the subject of appeal, which concludes in this Writ,, although
there were Motions for Reconsideration. The key element at this point is that,
respectfully from Myers’s view, the Court did not recognize the gravity of the
situation and the true meaning of the word “evil,” that Myers sought to expose
and further a real societal definition of this word.
• The historic appeal was entered it appears on December 4, 2018. Myers
submitted a comprehensive brief, and the Appellees submitted no brief or
written correspondence to the Court.

10

